                                 Office of Inspector General
                                Corporation for National and
                                         Community Service




   AUDITOF CORPORATIONFOR NATIONALAND
   COMMUNIN SERVICE GRANTS  AWARDEDTO
LOUISVILLE
        METROCOMMUNITY   ACTIONPARTNERSHIP
       FOSTERGRANDPARENT   PROGRAM
   RETIREDAND SENIOR VOLUNTEER PROGRAM

              OIG REPORTNUMBER06-29




                                                Camoration for
                                                NATIONALU
                                                COMMUNITY
                                                SERVICE=




                        Prepared by:

            CONRAD and ASSOCIATES, L.L.P.
                  2301 Dupont Drive
                Iwine, California 92612




This report was issued to Corporstlon management on May 26,2006. Under the
laws and regulatlons governing audit follow-up, the Corporation is to make final
management decisions on the report's flndlngs and recammendatlons no later
than November 27, 2006, and complete Its corrective sctlona by May 26,2007.
Consequently, the reported flndlngs do not necessarily represent the final
resolution of the Issues presented.
                                  ex?ynhAL&
                                  COMMUNITY
                                  SERVICE5



               Audit of Corporation for National and Community Service
                                Grants Awarded to the
                    Louisville Metro Community Action Partnership
         Foster Grandparent Program and Retired and Senior Volunteer Program
                                  Audit Report 06-29

OIG Summary

The Office of Inspector General (OIG), Corporation for National and Community Service
(Corporation), retained Conrad and Associates, L.L.P. (Conrad) to perform an incurred-
cost audit of grants awarded to the Louisville Metro Community Action Partnership
Foster Grandparent Program and the Retired and Senior Volunteer Program (Louisville).

During the audit period, Louisville claimed $765,447 in grant costs for the Foster
Grandparent Program, and $290,530 for the Retired and Senior Volunteer Program. Of
these amounts, the auditors questioned costs of $16,171 and $5,441, respectively. The
auditors also identified four internal control reportable conditions and four issues of
noncompliance with Federal laws and grant provisions. None of these issues are
considered material weaknesses.

In its detailed response to the draft audit report, Louisville documented its corrective
actions and improvements to the internal control and compliance issues, but it did not
address the questioned costs.

The OIG reviewed Conrad's report and related documentation and made necessary
inquiries of its representatives. Our review, as differentiated from an audit in accordance
with generally accepted government auditing standards, was not intended to enable us to
express, and we do not express, an opinion on Louisville's financial statements,
conclusions about the effectiveness of internal control or conclusions on compliance with
laws and regulations. Conrad is responsible for the attached auditor's report dated
January 13, 2006, and the conclusions expressed in the report. However, our review
disclosed no instances where Conrad did not comply, in all material respects, with
generally accepted government auditing standards.

The OIG provided officials of Louisville Metro Community Action Partnership and the
Corporation with a draft of this report for review and comment. Their responses are
included as Appendices A and B, respectively.

This report is a matter of public record and its distribution is not limited.




                                    *
                                              *
                   1201 New York Avenue, NW Suite 830, Washington, DC 20525
                      202-606-9390 Hotline: 800-452-8210 www.cncsig.gov               usA\=f
                                                                                      Freedom Corps
                        Senior Corps * AmeriCorps * Lean and Serve America            Mclb a D   l   h VoluntaK
                     Audit of Corporation for National and Community Service
                                        Grants Awarded to
                         Louisville Metro Community Action Partnership

                                       Foster Grandparent Program and
                                     Retired and Senior Volunteer Program



                                                 TABLE OF CONTENTS

                                                                                                                            Page
REPORT SUMMARY AND HIGHLIGHTS

    Executive Summary ............................................................................................           1

    Background ..........................................................................................................    2

    Purpose and Scope of Audit.................................................................................              3

    Grant Programs Audited ......................................................................................            3

    Costs Questioned..................................................................................................       4

    Internal Controls...................................................................................................     5

    Compliance ..........................................................................................................    6

    Report Release .....................................................................................................     6


INDEPENDENT AUDITOR’S REPORT.................................................................                                7


FINANCIAL SCHEDULES

    Consolidated Schedule of Award Costs...............................................................                      9

    Notes to Consolidated Schedule of Award Costs ................................................                          10

    Exhibit A – Schedule of Award and Questioned Costs – Foster
                Grandparent Program Award Number 03SFSKY002…... ...............                                             11

    Exhibit B – Schedule of Award and Questioned Costs – Foster
                Grandparent Program Award Number 05SFSKY002…... ...............                                             13
                 Audit of Corporation for National and Community Service
                                    Grants Awarded to
                     Louisville Metro Community Action Partnership

                                 Foster Grandparent Program and
                               Retired and Senior Volunteer Program



                              TABLE OF CONTENTS, (CONTINUED)

                                                                                                            Page
FINANCIAL SCHEDULES (CONTINUED)

  Exhibit C – Schedule of Award and Questioned Costs – Retired and
              Senior Volunteer Program Award Number 03SRSKY003 ..............                               15

  Exhibit D – Schedule of Award and Questioned Costs – Retired and
              Senior Volunteer Program Award Number 05SRSKY002 ..............                               17


COMPLIANCE AND INTERNAL CONTROLS

  Report on Compliance and Other Matters and on Internal Controls Over
    Financial Reporting Based on an Audit of Financial Statements
    Performed in Accordance with Government Audit Standards .........................                       19

  Schedule of Internal Control Findings .................................................................   21

  Schedule of Compliance Findings .......................................................................   30


RESPONSES TO AUDIT REPORT

  Louisville Metro Community Action Partnership................................................ Appendix A

  Corporation for National and Community Service .............................................. Appendix B
REPORT SUMMARY AND HIGHLIGHTS
Office of Inspector General
Corporation for National and Community Service


This report is issued under an Office of Inspector General (OIG) engagement with
Conrad and Associates, L.L.P. to audit the costs claimed by the Louisville Metro
Community Action Partnership (Louisville) Foster Grandparent Program (FGP) and
Retired and Senior Volunteer Program (RSVP) from July 1, 2003, through June 30,
2005, under FGP Grant Numbers 03SFSKY002 and 05SFSKY002, and RSVP Grant
Numbers 03SRSKY003 and 05SRSKY002, awarded by the Corporation for National and
Community Service (Corporation). This report focuses on claimed costs, instances of
noncompliance with Federal laws, applicable regulations or award conditions, and
internal control weaknesses disclosed during our audit.


                                 Executive Summary

We are questioning costs totaling $16,171 for the Foster Grandparent Program ($15,717
for audit period July 1, 2003, through December 31, 2004, and $454 for January 1, 2005,
through June 30, 2005), and costs totaling $5,441 for the Retired and Senior Volunteer
Program ($15,620 for audit period July 1, 2003, through December 31, 2004, and
($10,179) for January 1, 2005, through June 30, 2005). We are also questioning some
match costs claimed; however, the questioned match costs were claimed in excess of the
minimum match required or the grants were not yet completed. The grant costs
questioned are approximately 2.11 percent of the total $765,447 in costs claimed for the
Foster Grandparent Program, and approximately 1.87 percent of the total $290,530 in
costs claimed for the Retired and Senior Volunteer Program. A questioned cost is (1) an
alleged violation or provision of law, regulation, contract, grant, or cooperative
agreement, or other agreement or document governing the expenditure of funds; (2) a
finding that, at the time of the audit, such cost was not supported by adequate
documentation; or (3) a finding that the expenditure of funds for the intended purpose
was unnecessary or unreasonable.

Costs questioned include unsupported volunteer support costs and expenses, volunteer
mileage charged in excess of grantee policy, unsupported other direct costs, unsupported
match costs, overstated telephone expenses, costs inadvertently charged to the wrong
grant, and postage expense inadvertently charged twice. Details related to questioned
costs are presented in the Independent Auditor’s Report.




                                           1
                                     Background

The Corporation, under the authority of the National Community Service Trust Act of
1993, awards grants and cooperative agreements to assist in the creation of full-time and
part-time national and local community service programs. The purpose of the
Corporation’s Foster Grandparent Program is to provide grants to qualified organizations
to engage persons age 60 and older, particularly those with limited incomes, in volunteer
service to meet critical community needs; and to provide a high quality experience that
will enrich the lives of the volunteers. Program funds are used to support Foster
Grandparents in providing supportive, person-to-person service to children with
exceptional or special needs. The Retired and Senior Volunteer Program has a similar
purpose but the minimum age to qualify as a volunteer is 55.

The Louisville FGP and RSVP are operated under the Louisville Metro Community
Action Partnership as a part of the Louisville Metro Government. The purpose of the
Louisville FGP is to recruit and place low-income senior volunteers with special-needs
children in child care agencies and public school classrooms throughout the community.
The purpose of the Louisville RSVP is to recruit and place volunteers to serve in
nonprofit and proprietary health care organizations.

The Louisville FGP was authorized $1,171,697 in funding and exercised $723,439 in
drawdowns for the period audited. The Louisville RSVP was authorized $438,168 in
funding and exercised $273,014 in drawdowns. Authorized funding, grantee claimed
expenditures and drawdowns by grant are as follows:

                                                             Claimed           Drawdowns
                                            Funding         Within Audit         During
               Program                     Authorized         Period           Audit Period

Foster Grandparent Program
  03SFSKY002                               $   778,976       $ 564,678          $ 723,439
  05SFSKY002                                   392,721         200,769               -
                                           $ 1,171,697       $ 765,447          $ 723,439

Retired and Senior Volunteer Program
  03SRSKY003                               $ 291,306         $ 227,989          $ 273,014
  05SRSKY002                                 146,862            62,541               -
                                           $ 438,168         $ 290,530          $ 273,014

      Total                                $ 1,609,865      $ 1,055,977*        $ 996,453*

*   The differences between the amount claimed and amount drawn down are generally
    due to timing issues.




                                           2
                             Purpose and Scope of Audit

Our audit covered the costs claimed under Corporation Grant Numbers 03SFSKY002,
05SFSKY002, 03SRSKY003, and 05SRSKY002 for the grant period detailed on page 4.

The objectives of our audit were to determine whether:

       •   financial reports prepared by Louisville presented fairly the financial results
           of the awards;
       •   internal controls were adequate to safeguard Federal funds;
       •   Louisville had adequate procedures and controls to ensure compliance with
           Federal laws, applicable regulations, award conditions, and that volunteer
           services were appropriate to the program;
       •   award costs reported to the Corporation were documented and allowable in
           accordance with the award terms and conditions; and
       •   Louisville had established adequate oversight of the program.

We performed the audit in accordance with auditing standards generally accepted in the
United States of America and standards applicable to financial audits contained in
Government Auditing Standards issued by the Comptroller General of the United States.
Those standards require that we plan and perform the audit to obtain reasonable
assurance about whether the amounts claimed against the award, as presented in the
Consolidated Schedule of Award Costs, are free of material misstatement. An audit
includes examining, on a test basis, evidence supporting the amounts and disclosures in
the Consolidated Schedule of Award Costs. An audit also includes assessing the
accounting principles used and significant estimates made by the auditee, as well as
evaluating the overall financial schedule presentation. Our audit included reviews of
audit reports prepared by the independent public accountants for Louisville in
accordance with the requirements of OMB Circular A-133, Audits of States, Local
Governments and Non-profit Organizations. We believe our audit provides a reasonable
basis for our opinion.

We performed our audit during the period October 31, 2005, through January 13, 2006.
The contents of this report were disclosed to and discussed with Louisville at an exit
conference on March 16, 2006. In addition, we provided a draft of this report to
Louisville and to the Corporation for comment on March 27, 2006. Their responses are
included as Appendices A and B, respectively.


                               Grant Programs Audited

Our audit of the Louisville FGP and RSVP Programs covered financial transactions,
compliance and internal control testing of the following program awards funded by the
Corporation:




                                            3
Foster Grandparent Program
                      Award Number             Award Period                Audit Period
                      03SFSKY002            01/01/03 – 12/31/04         07/01/03 – 12/31/04
                      05SFSKY002            01/01/05 – 12/31/07         01/01/05 – 06/30/05

Retired and Senior Volunteer Program
                      Award Number             Award Period                Audit Period
                      03SRSKY003            01/01/03 – 12/31/04         07/01/03 – 12/31/04
                      05SRSKY002            01/01/05 – 12/31/07         01/01/05 – 06/30/05

Our audit of the costs claimed by Louisville under the awards disclosed the following:

                                                                              Percentage of
             Foster Grandparent Program                    Amount            Budget/Claimed
                    Award Budget                         $ 1 ,171,697               -
                    Claimed Costs                             765,447         65.33 percent
               Questioned Grant Costs                          16,171          2.11 percent

                                                                              Percentage of
        Retired and Senior Volunteer Program               Amount            Budget/Claimed
                    Award Budget                          $ 438,168                 -
                    Claimed Costs                           290,530           66.31 percent
               Questioned Grant Costs                         5,441            1.87 percent


                                   Costs Questioned

The following table summarizes the costs questioned on the awards:

                     Foster Grandparent Program

                                                                        Federal
                            Descriptions                                 Share
        Unsupported volunteer support and expenses;
        variance between Financial Status Reports and
        general ledger                                                   $ 15,290
        Volunteer mileage cost charged exceeded grantee
        policy                                                                 53
        Unsupported other direct costs                                        135
        RSVP expense of $426 inadvertently charged to FGP                     426
        Postage inadvertently expensed twice                                  267
                                      Total Costs Questioned:            $ 16,171




                                           4
           Retired and Senior Volunteer Program

                                                                               Federal
                       Descriptions                                             Share
    Unsupported volunteer support and expenses;
    variance between Financial Status Reports and
    general ledger                                                                 $ 4,302
    Unsupported other direct costs                                                   1,139
                                  Total Costs Questioned:                          $ 5,441

We used a judgmental sampling methodology to test the costs claimed. Based upon this
sampling plan, questioned costs in this report may not represent total costs that may have
been questioned had all expenditures been tested. We have made no attempt to project
such costs to total expenditures incurred, based on the relationship of costs tested to total
costs. For a complete discussion of these questioned costs, refer to the Independent
Auditor’s Report.


                                            Internal Controls

Our audit disclosed the following instances that were considered to be reportable internal
control weaknesses.

1. Detailed FGP and RSVP volunteer support and expense reports could not be
   reconciled to the general ledger.
2. Insufficient documentation was maintained for FGP and RSVP volunteer support
   expenses and volunteer reimbursements.
3. FGP and RSVP telephone match costs charged were based on estimated rather than
   actual costs; however, no match costs are questioned in excess of the minimum
   match required or the grants were not yet completed.
4. FGP and RSVP transactions were inadvertently booked to the wrong fiscal year in
   “inactive accounts.”

We believe none of the reportable conditions noted above represents a material
weakness.1




1
  A material weakness is a reportable condition in which the design or operation of one or more of the
internal control components does not reduce, to a relatively low level, the risk that errors or irregularities in
amounts, which would be material to the financial statements being audited, may occur and not be detected
within a timely period by employees in the normal course of performing their assigned functions.



                                                       5
                                      Compliance

Our audit disclosed the following instances of noncompliance with Federal laws,
applicable regulations and award conditions that were considered to be reportable
conditions.

1. The grantee did not adequately undertake its responsibilities in the following
   program and administrative areas:
           a. The grantee did not have formal procedures to maintain documentation or
               staff certification to support that the FGP and RSVP volunteer stations
               meet the program criteria.
           b. There were no formal procedures to periodically review the status of FGP
               and RSVP volunteer stations to ensure that they continually meet the
               program criteria.
           c. The grantee did not properly develop and renegotiate the FGP and RSVP
               Memorandums of Understanding (MOUs) with volunteer stations in
               accordance with the program requirements.
           d. The grantee did not adequately monitor the FGP volunteer stations to
               ensure that they comply with all applicable laws and regulations, and that
               they satisfactorily fulfill their responsibilities as stated in the MOU.
2. Grant program and financial reports were not submitted to the Corporation in a
   timely manner.
3. Grant volunteer eligibility documentation and records were either missing or
   incomplete.
4. FGP volunteer assignment plans and annual volunteer performance evaluations were
   either missing or not developed.


                                        Report Release

This report is intended for the information and use of the Office of Inspector General,
management of the Corporation for National and Community Service, Louisville Metro
Community Action Partnership and the U.S. Congress.




                                           6
Office of Inspector General
Corporation for National and Community Service

                        INDEPENDENT AUDITOR’S REPORT

We have audited the costs incurred by the Louisville Metro Community Action
Partnership Foster Grandparent Program and the Retired and Senior Volunteer Program
(Louisville) for the award numbers listed below. These costs, as presented in the
Consolidated Schedule of Award Costs, are the responsibility of Louisville’s
management. Our responsibility is to express an opinion on the Consolidated Schedule
of Award Costs based on our audit.

Foster Grandparent Program
                      Award Number              Award Period               Audit Period
                      03SFSKY002             01/01/03 – 12/31/04        07/01/03 – 12/31/04
                      05SFSKY002             01/01/05 – 12/31/07        01/01/05 – 06/30/05

Retired and Senior Volunteer Program
                      Award Number              Award Period               Audit Period
                      03SRSKY003             01/01/03 – 12/31/04        07/01/03 – 12/31/04
                      05SRSKY002             01/01/05 – 12/31/07        01/01/05 – 06/30/05

We conducted our audit in accordance with auditing standards generally accepted in the
United States of America and the standards applicable to financial audits contained in
Government Auditing Standards issued by the Comptroller General of the United States.
Those standards require that we plan and perform the audit to obtain reasonable
assurance about whether the financial schedules are free of material misstatement. An
audit includes examining, on a test basis, evidence supporting the amounts and
disclosures in the financial schedules. An audit also includes assessing the accounting
principles used and significant management estimates, as well as evaluating the overall
financial schedule presentation. We believe our audit provides a reasonable basis for our
opinion.

In our opinion, except for the issues related to the $21,612 in questioned grant costs
discussed above, the Consolidated Schedule of Award Costs referred to above present
fairly, in all material respects, the costs claimed for the period July 1, 2003, to June 30,
2005, in conformity with generally accepted accounting standards in the United States of
America.




                                             7
In accordance with Government Auditing Standards, we have also issued a report dated
January 13, 2006, on our consideration of Louisville’s internal control over financial
reporting and on our tests of its compliance with certain provisions of laws, regulations,
contracts, grant agreements and other matters. The purpose of that report is to describe
the scope of our testing of internal control over financial reporting and compliance and
the results of that testing, and not to provide an opinion on the internal control over
financial reporting or on compliance. That report is an integral part of an audit
performed in accordance with Government Auditing Standards and should be considered
in assessing the results of our audit.

This report is intended for the information and use of the Office of Inspector General,
management of the Corporation for National and Community Service, Louisville Metro
Community Action Partnership, and the U.S. Congress.




Conrad and Associates, L.L.P.
Irvine, California
January 13, 2006




                                            8
             Corporation for National and Community Service
             Louisville Metro Community Action Partnership

                   Foster Grandparent Program and
                 Retired and Senior Volunteer Program

                 Consolidated Schedule of Award Costs

                      July 1, 2003, to June 30, 2005


                         Foster Grandparent Program
   Award          Approved          Claimed         Questioned
  Number           Budget            Costs             Costs      Reference
03SFSKY002       $ 778,976         $ 564,678         $ 15,717     Exhibit A
05SFSKY002           392,721          200,769             454     Exhibit B
   Total         $ 1,171,697       $ 765,447         $ 16,171


                    Retired and Senior Volunteer Program
   Award          Approved          Claimed         Questioned
  Number           Budget             Costs            Costs      Reference
03SRSKY003        $ 291,306       $ 227,989          $ 15,620     Exhibit C
05SRSKY002          146,862            62,541         (10,179)    Exhibit D
   Total          $ 438,168       $ 290,530          $ 5,441


   Total         $ 1,609,865      $ 1,055,977          $ 21,612




                                    9
              Corporation for National and Community Service
              Louisville Metro Community Action Partnership

                     Foster Grandparent Program and
                   Retired and Senior Volunteer Program

               Notes to Consolidated Schedule of Award Costs

                         July 1, 2003, to June 30, 2005


Reporting Entity

The accompanying Consolidated Schedule of Award Costs includes amounts
budgeted, claimed, and questioned under the Foster Grandparent Program and Retired
and Senior Volunteer Program grants awarded to Louisville by the Corporation for
the period from July 1, 2003, to June 30, 2005.


Basis of Accounting

The accompanying Consolidated Schedule has been prepared to comply with the
provisions of the grant agreements between the Corporation and Louisville. The
information presented in the Schedule has been prepared from the reports submitted
by Louisville to the Corporation. The basis of accounting used in preparation of
these reports differs slightly from accounting principles generally accepted in the
United States of America as follows:

    Equipment
    Equipment is charged to expense in the period during which it is purchased
    instead of being recognized as an asset and depreciated over its useful life. As a
    result, the expenses reflected in the Consolidated Schedule of Award Costs
    include the cost of equipment purchased during the period rather than a provision
    for depreciation. The equipment acquired is owned by Louisville while used in
    the program for which it was purchased or in other future authorized programs.
    However, the Corporation has a reversionary interest in the equipment. Its
    disposition, as well as the ownership of any proceeds there from, is subject to
    Federal regulations.

    Inventory
    Minor materials and supplies are charged to expense during the period of
    purchase.




                                       10
                                                                         Exhibit A
                                                                        Page 1 of 2
                 Corporation for National and Community Service
                 Louisville Metro Community Action Partnership

                            Foster Grandparent Program
                            Award Number 03SFSKY002
                         (July 1, 2003, to December 31, 2004)

                     Schedule of Award and Questioned Costs



                                                                        Reference

Approved Budget (Federal Funds)                           $ 778,976

Claimed Costs                                             $ 564,678

Questioned Costs (Federal Share):                         $ 15,717        Note 1

Questioned Match Costs                                              -     Note 2

Total Questioned Costs                                     $ 15,717


Notes

1. Questioned Costs (Federal Share):

                                                         Number of      Questioned
                         Exception                       Occurrences     Amount
    Unsupported volunteer support and expenses;
    variance between Financial Status Reports and
    general ledger (see Internal Control Finding 1)             1         $ 15,529
    Volunteer mileage cost charged exceeded grantee
    policy (see Internal Control Finding 2)                     1                  53
    Unsupported other direct costs (see Internal
    Control Finding 2)                                          1              135
       Total questioned costs (Federal share)                             $ 15,717




                                         11
                                                                         Exhibit A
                                                                        Page 2 of 2
                Corporation for National and Community Service
                Louisville Metro Community Action Partnership

                          Foster Grandparent Program
                          Award Number 03SFSKY002
                       (July 1, 2003, to December 31, 2004)

                    Schedule of Award and Questioned Costs



2. Unsupported Match Costs:

   Grantee did not provide adequate support for $13,261 of match costs. However, no
   costs were questioned because the unsupported match costs were claimed in excess
   of the minimum match required for the audit period.

                                                                      Unsupported
                               Description                             Amount
    Unsupported match costs including meals, laundry and personnel
    (see Internal Control Finding 2).                                     $ 10,297
    Telephone match costs were overstated due to use of estimated
    rather than actual expenses (see Internal Control Finding 3).            2,964
       Total unsupported match costs                                      $ 13,261




                                        12
                                                                          Exhibit B
                                                                         Page 1 of 2
                 Corporation for National and Community Service
                 Louisville Metro Community Action Partnership

                           Foster Grandparent Program
                           Award Number 05SFSKY002
                         (January 1, 2005, to June 30, 2005)

                     Schedule of Award and Questioned Costs



                                                                         Reference

Approved Budget (Federal Funds)                           $ 392,721

Claimed Costs                                             $ 200,769

Questioned Costs (Federal Share):                         $        454     Note 1

Questioned Match Costs                                               -     Note 2

Total Questioned Costs                                    $        454


Notes

1. Questioned Costs (Federal Share):

                                                         Number of       Questioned
                        Exception                        Occurrences      Amount
    Unsupported volunteer support and expenses;
    variance between Financial Status Reports and
    general ledger (see Internal Control Finding 1)            1            $ (239)
    RSVP expense inadvertently charged to FGP (see
    Internal Control Finding 2)                                1                426
    Postage inadvertently expensed twice (see
    Internal Control Finding 2)                                1              267
       Total questioned costs (Federal share)                               $ 454




                                         13
                                                                         Exhibit B
                                                                        Page 2 of 2
                Corporation for National and Community Service
                Louisville Metro Community Action Partnership

                         Foster Grandparent Program
                         Award Number 05SFSKY002
                       (January 1, 2005, to June 30, 2005)

                    Schedule of Award and Questioned Costs



2. Unsupported Match Costs:

   The grantee did not provide adequate support for $2,979 of match costs. However,
   no costs were questioned because the grant was not yet completed.

                                                                      Unsupported
                               Description                             Amount
    Unsupported match costs including meals and laundry (see
    Internal Control Finding 2).                                            $ 3,890
    Telephone match costs were overstated due to use of estimated
    rather than actual expenses (see Internal Control Finding 3).            (911)
       Total unsupported match costs                                        $ 2,979




                                        14
                                                                          Exhibit C
                                                                         Page 1 of 2
                 Corporation for National and Community Service
                 Louisville Metro Community Action Partnership

                         Retired and Senior Volunteer Program
                             Award Number 03SRSKY003
                          (July 1, 2003, to December 31, 2004)

                     Schedule of Award and Questioned Costs



                                                                         Reference

Approved Budget (Federal Funds)                           $ 291,306

Claimed Costs                                             $ 227,989

Questioned Costs (Federal Share):                         $ 15,620         Note 1

Questioned Match Costs                                               -     Note 2

Total Questioned Costs                                     $ 15,620


Notes

1. Questioned Costs (Federal Share):

                                                         Number of       Questioned
                        Exception                        Occurrences      Amount
    Unsupported volunteer support and expenses;
    variance between Financial Status Reports and
    general ledger (see Internal Control Finding 1)              1         $ 14,977
    Unsupported other direct costs (see Internal
    Control Finding 2)                                           1              643
       Total questioned costs (Federal share)                              $ 15,620




                                          15
                                                                          Exhibit C
                                                                         Page 2 of 2
                 Corporation for National and Community Service
                 Louisville Metro Community Action Partnership

                      Retired and Senior Volunteer Program
                          Award Number 03SRSKY003
                       (July 1, 2003, to December 31, 2004)

                     Schedule of Award and Questioned Costs



2. Unsupported Match Costs:

   The grantee did not provide adequate support for $56,807 of match costs. However,
   no costs were questioned because the unsupported match costs were claimed in
   excess of the minimum match required for the audit period.

                                                                        Unsupported
                               Description                               Amount
    Unsupported match costs including meals, personnel, volunteer
    travel, recognition, smocks laundered, and clothing (see Internal
    Control Finding 2).                                                     $ 53,843
    Telephone match costs were overstated due to use of estimated
    rather than actual expenses (see Internal Control Finding 3).             2,964
       Total unsupported match costs                                        $ 56,807




                                          16
                                                                          Exhibit D
                                                                         Page 1 of 2
                 Corporation for National and Community Service
                 Louisville Metro Community Action Partnership

                         Retired and Senior Volunteer Program
                             Award Number 05SRSKY002
                           (January 1, 2005, to June 30, 2005)

                     Schedule of Award and Questioned Costs



                                                                         Reference

Approved Budget (Federal Funds)                           $ 146,862

Claimed Costs                                             $ 62,541

Questioned Costs (Federal Share):                        $ (10,179)        Note 1

Questioned Match Costs                                               -     Note 2

Total Questioned Costs                                    $ (10,179)


Notes

1. Questioned Costs (Federal Share):

                                                         Number of       Questioned
                        Exception                        Occurrences      Amount
    Unsupported volunteer support and expenses;
    variance between Financial Status Reports and
    general ledger (see Internal Control Finding 1)              1       $ (10,675)
    Unsupported other direct costs (see Internal
    Control Finding 2)                                           1             496
       Total questioned costs (Federal share)                            $ (10,179)




                                          17
                                                                          Exhibit D
                                                                         Page 2 of 2
                Corporation for National and Community Service
                Louisville Metro Community Action Partnership

                      Retired and Senior Volunteer Program
                          Award Number 05SRSKY002
                        (January 1, 2005 to June 30, 2005)

                    Schedule of Award and Questioned Costs



2. Unsupported Match Costs:

   The grantee did not provide adequate support for $15,692 of match costs. However,
   no costs were questioned because the grant was not yet completed.

                                                                       Unsupported
                                Description                             Amount
    Unsupported match costs including meals, personnel, volunteer
    travel, recognition, and other donations (see Internal Control
    Finding 2).                                                            $ 16,603
    Telephone match costs were overstated due to use of estimated
    rather than actual expenses (see Internal Control Finding 3).             (911)
       Total unsupported match costs                                       $ 15,692




                                        18
Office of Inspector General
Corporation for National and Community Service

 REPORT ON COMPLIANCE AND OTHER MATTERS AND ON INTERNAL
  CONTROLS OVER FINANCIAL REPORTING BASED ON AN AUDIT OF
   FINANCIAL STATEMENTS PERFORMED IN ACCORDANCE WITH
               GOVERNMENT AUDIT STANDARDS

We have audited the Consolidated Schedule of Award Costs that summarize the claimed
costs of Louisville under the Corporation awards listed below, and have issued our report
thereon, dated January 13, 2006.

 Foster Grandparent Program
                  Award Number                 Award Period               Audit Period
                    03SFSKY002              01/01/03 – 12/31/04        07/01/03 – 12/31/04
                    05SFSKY002              01/01/05 – 12/31/07        01/01/05 – 06/30/05

 Retired and Senior Volunteer Program
                   Award Number                Award Period               Audit Period
                    03SRSKY003              01/01/03 – 12/31/04        07/01/03 – 12/31/04
                    05SRSKY002              01/01/05 – 12/31/07        01/01/05 – 06/30/05

We conducted our audit in accordance with auditing standards generally accepted in the
United States of America and the standards applicable to financial audits contained in
Government Auditing Standards, issued by the Comptroller General of the United States
of America.

                            Compliance and Other Matters

As part of obtaining reasonable assurance about whether Louisville’s financial schedules
are free of material misstatement, we performed tests of its compliance with certain
provisions of laws, regulations, contracts and grant agreements, noncompliance with
which could have a direct and material effect on the determination of financial statement
amounts. However, providing an opinion on compliance with those provisions was not
an objective of our audit and, accordingly, we do not express such an opinion. The
results of our tests disclosed certain instances of noncompliance or other matters that are
required to be reported under Government Auditing Standards. These instances are
described in the Schedule of Compliance Findings section of this report as Finding Nos.
1 through 4.




                                            19
                      Internal Controls Over Financial Reporting

In planning and performing our audit, we considered Louisville’s internal controls over
financial reporting in order to determine our auditing procedures for the purpose of
expressing our opinion on the financial schedules and not to provide an opinion on the
internal control over financial reporting. However, we noted certain matters involving
the internal controls over financial reporting and its operation that we consider to be
reportable conditions. Reportable conditions involve matters coming to our attention
relating to significant deficiencies in the design or operation of the internal controls over
financial reporting, that, in our judgment, could adversely affect Louisville’s ability to
record, process, summarize, and report financial data consistent with the assertions of
management in the program statements. These reportable conditions are described in the
Schedule of Internal Control Findings section of this report as Finding Nos. 1 through 4.

A material weakness is a reportable condition in which the design or operation of one or
more of the internal control components does not reduce, to a relatively low level, the
risk that misstatements caused by error of fraud in amounts that would be material in
relation to the project statements being audited may occur and not be detected within a
timely period by employees in the normal course of performing their assigned functions.
Our consideration of the internal controls over financial reporting would not necessarily
disclose all matters in the internal controls that might be reportable conditions and,
accordingly, would not necessarily disclose all reportable conditions that are also
considered to be material weaknesses. However, we do not consider the reportable
conditions noted above to be material weaknesses.

This report is intended for the information and use of the Office of Inspector General, as
well as the management of the Corporation, the Louisville Metro Community Action
Partnership, and the U.S. Congress.




Conrad and Associates, L.L.P.
Irvine, California
January 13, 2006




                                             20
                 Corporation for National and Community Service
                 Louisville Metro Community Action Partnership

                         Foster Grandparent Program and
                       Retired and Senior Volunteer Program

                        Schedule of Internal Control Findings

                               July 1, 2003, to June 30, 2005


We found the following matters involving Louisville’s internal control over financial
reporting and its operation that we consider to be reportable conditions under standards
established by the American Institute of Certified Public Accountants.

Internal Control Finding No. 1 – Unsupported Volunteer Support and Expenses

Condition
From our testing of volunteer support and expenses, we found a $19,592 variance
between the total of volunteer support and expenses paid as recorded in the grantee’s
general ledger, and the total of support and expenses claimed per the grantee’s Financial
Status Reports. Therefore, the variance of $19,592 is questioned.

                                             Variance Between General Ledger
                FGP Grant Number               and Financial Status Reports
                  03SFSKY002                             $ 15,529
                  05SFSKY002                                 (239)
                                                         $ 15,290

                                             Variance Between General Ledger
               RSVP Grant Number               and Financial Status Reports
                 03SRSKY003                              $ 14,977
                 05SRSKY002                               (10,675)
                                                         $ 4,302

                       Total                             $ 19,592

This condition was due to a lack of oversight on the part of the grantee. Without
sufficient supporting documentation, expenses claimed may be disallowed.

Criteria
Code of Federal Regulations, 45 Part 2541, sets out administrative requirements that
State and local government grant recipients must follow. Section 2541.200b requires:
        (2) Accounting records. Grantees and subgrantees must maintain
        records which adequately identify the source and application of funds
        provided for financially-assisted activities. These records must contain
        information pertaining to grant or subgrant awards and authorizations,


                                            21
       obligations, unobligated balances, assets, liabilities, outlays or
       expenditures, and income.

      (3) Internal control. Effective control and accountability must be
      maintained for all grant and subgrant cash, real and personal property,
      and other assets. Grantees and subgrantees must adequately safeguard all
      such property and must assure that it is used solely for authorized
      purposes…

      (6) Source documentation. Accounting records must be supported by such
      source documentation as canceled checks, paid bills, payrolls, time and
      attendance records, contract and sub-grant award documents, etc.

In addition, the Corporation’s FGP and RSVP regulations, CFR 45 Section 2552.25
states:

       A sponsor shall: …
       (g)Establish record keeping and reporting systems in compliance with
       Corporation requirements that ensure quality of program and fiscal
       operations, facilitate timely and accurate submission of required reports
       and cooperate with Corporation evaluation and data collection efforts.


Recommendation

We recommend that the Corporation instruct the grantee to reinforce its current
accounting policies and procedures to ensure that volunteer support and expense records
are properly reconciled and maintained. The Corporation should work with the grantee
to resolve the questioned differences.

Louisville’s Response

Monthly monitoring of FGP and RSVP accounts will be done to ensure that appropriate
expenditures are posted to the appropriate grant and period, in addition to maintaining
supporting documentation. Amended Financial Status Reports will be submitted that
include account adjustments identified during the monthly monitoring process.

Financial Status Reports will be reconciled semiannually to the general ledger based on
Louisville Metro Government’s Financial System closing schedule. Adjusting entries
processed after closing will be included in amended Financial Status Reports. The
amended reports will be reconciled to the updated financial information posted to the
general ledger.




                                          22
Auditors’ Comments

We concur with the actions being taken by Louisville to ensure that expense records are
properly maintained, reconciled and reported. However, we recommend that the
Corporation continue to work with Louisville to resolve the questioned differences and
recoup any costs over-claimed on the grants.

Internal Control Finding No. 2 – Insufficient Documentation for Expenses and
Reimbursements

Condition

FGP and RSVP Costs (Federal Share)
We reviewed $80,044 in FGP stipends, $14,213 in other FGP volunteer expenses,
$20,190 in other RSVP volunteer expenses, $10,395 in other FGP direct costs, and
$6,353 in other RSVP direct costs charged to the grant. As a result of our review, we
noted the following:
    • We found one instance where mileage charged exceeded the maximum allowed
       per grantee. As a result, $53 in other FGP volunteer expenses is questioned.
    • No supporting documents was provided for $135 of FGP and $1,139 of RSVP
       other direct costs.
    • Postage in the amount of $267 was charged twice to the FGP program.
    • Costs totaling $426 not relating to the FGP program were charged to the grant.

FGP and RSVP Costs (Match Costs)
We reviewed $28,277 in FGP match costs and $79,166 in RSVP match costs. We noted
$14,187 in unsupported FGP match costs, including $10,297 for grant 03SFSKY002, and
$3,890 for grant 05SFSKY002. We also noted $70,446 in unsupported RSVP match
costs, including $53,843 claimed on grant 03SRSKY003, and $16,603 claimed on grant
05SRSKY002.

These expenses did not have sufficient documentation to support that the expenses were
incurred during the grant period and that the amounts reported were reasonable and
allowable. In a few cases, supporting documentation for the number of meals furnished
by a volunteer station was provided, but not for the base value of the meals. As a result,
FGP and RSVP match costs totaling $84,633 were not adequately supported; however,
no costs were questioned as match costs were claimed in excess of the minimum match
required or the grants were not yet completed.

                              Total
        FGP Award          Unsupported       Corporation        Match
         Number               Costs            Share             Costs
       03SFSKY002           $ 10,485           $ 188           $ 10,297
       05SFSKY002              4,583             693              3,890
                            $ 15,068           $ 881           $ 14,187




                                           23
                              Total
       RSVP Award          Unsupported       Corporation        Match
         Number               Costs            Share            Costs
       03SRSKY003           $ 54,486            $ 643          $ 53,843
       05SRSKY002             17,099              496            16,603
                            $ 71,585           $1,139          $ 70,446

            Total            $ 86,653           $ 2,020        $ 84,633

Supporting documentation could not be located due to staff turnover and lack of
oversight. Without sufficient supporting documentation, expenses claimed may be
disallowed or may not be accepted as part of the grantee share of program operating
costs.

Criteria
45 CFR 2541, Section 2541.200(b) states:
        (2) Accounting records. Grantees and subgrantees must maintain
        records which adequately identify the source and application of funds
        provided for financially-assisted activities. These records must
        contain information pertaining to grant or subgrant awards and
        authorizations, obligations, unobligated balances, assets, liabilities,
        outlays or expenditures, and income.
          (3) Internal control. Effective control and accountability must be
        maintained for all grant and subgrant cash, real and personal
        property, and other assets. Grantees and subgrantees must adequately
        safeguard all such property and must assure that it is used solely for
        authorized purposes…
          (6) Source documentation. Accounting records must be supported
        by such source documentation as canceled checks, paid bills,
        payrolls, time and attendance records, contract and sub-grant award
        documents, etc

Furthermore, 45 CFR 2552.25 and 2553.25 state:
       A sponsor shall: …
       (g) Establish record keeping and reporting systems in compliance
       with Corporation requirements that ensure quality of program and
       fiscal operations, facilitate timely and accurate submission of
       required reports and cooperate with Corporation evaluation and
       data collection efforts.

Additionally, 45 CFR 2541.240, states:
       (a) Basic rule; costs and contributions acceptable. With the
       qualifications and exceptions listed in paragraph (b) of this section, a
       matching or cost sharing requirement may be satisfied by either or
       both of the following:



                                           24
         (1) Allowable costs incurred by the grantee, subgrantee or a cost-
       type contractor under the assistance agreement. This includes
       allowable costs borne by non-Federal grants or by other cash
       donations from non-Federal third parties.
         (2) The value of third party in-kind contributions applicable to the
       period to which the cost sharing or matching requirement applies.


Recommendation

We recommend that the Corporation instruct the grantee to:

   •   Obtain and retain adequate supporting documentation in the grantee’s record
       maintenance system.
   •   Strengthen the grantee’s current accounting policies and procedures to ensure that
       supporting documentation is properly maintained. If documentation is not
       provided for the costs questioned in this finding, we recommend that the
       Corporation attempt to recoup those costs. We further recommend that the
       Corporation review match claimed to these grants prior to closeout to ensure it is
       supported and allowable.

Louisville’s Response

In most instances, supporting documentation for Corporation share expenses pertained to
interagency charges and match costs. A process has been established to ensure that
supporting documentation for interagency charges is maintained on site.

Auditors’ Comments

We recognize and concur with the actions being implemented by Louisville to reinforce
and strengthen the record maintenance system. However, we still recommend that the
Corporation determine the allowability of the costs questioned and recoup any
unsupported costs questioned which are deemed not allowable or allocable to the grants.
In addition, we continue to recommend that the Corporation review match claimed to
these grants prior to closeout to ensure the costs are supported and allowable.


Internal Control Finding No. 3 – Telephone Match Costs Charged Based on
Estimated Rather Than Actual Costs

Condition
During our review of match costs, we noted that FGP / RSVP telephone match costs
charged were based on estimated rather than actual costs. We tested 100 percent, or
$12,240 in FGP / RSVP telephone match costs charged for the audit period, and found
that telephone expenses were overstated by $4,106. No costs were questioned as match




                                          25
costs were claimed in excess of the minimum match required or the grants were not yet
completed.

                                Total
           FGP Award         Unsupported         Federal         Match
            Number              Costs             Share          Costs
          03SFSKY002          $ 2,964               -           $ 2,964
          05SFSKY002              (911)             -              (911)
                              $ 2,053               -           $ 2,053

                                Total
          RSVP Award         Unsupported         Federal          Match
            Number              Costs             Share           Costs
          03SRSKY003           $ 2,964              -            $ 2,964
          05SRSKY002              (911)             -               (911)
                               $ 2,053              -            $ 2,053

              Total            $ 4,106              -           $ 4,106

According to the grantee, Louisville Metro Government processed telephone expenses
while Louisville allocated FGP / RSVP telephone match cost expenses to the FGP and the
RSVP programs based on the number of lines used by each. The allocation calculation
was only performed once, and thereafter, the same amounts were charged to FGP and
RSVP every six months. When the FGP and RSVP programs began reporting their match
costs every three months instead of six months, the allocated telephone expenses were not
correspondingly reduced by 50 percent. In addition, telephone expenses were based on
estimated rather than actual charges since the allocation calculation was not performed
each month. As a result, expenses not incurred within the grant period were charged as
the grantee share of program operating costs.

This condition was due to a lack of oversight on the part of the grantee. Without
sufficient supporting documentation, expenses claimed may be disallowed or may not be
accepted as part of the grantee share of program operating costs.


Criteria
45 CFR 2541.240, states:
        (a) Basic rule; costs and contributions acceptable.           With the
        qualifications and exceptions listed in paragraph (b) of this section, a
        matching or cost sharing requirement may be satisfied by either or both
        of the following:
          (1) Allowable costs incurred by the grantee, subgrantee or a cost-type
        contractor under the assistance agreement. This includes allowable
        costs borne by non-Federal grants or by other cash donations from non-
        Federal third parties.




                                           26
         (2) The value of third party in-kind contributions applicable to the
       period to which the cost sharing or matching requirements applies.

In addition, 45 CFR 2541.200(b) states:
        (1) Financial reporting. Accurate, current, and complete disclosure of
        the financial results of financially assisted activities must be made in
        accordance with the financial reporting requirements of the grant or
        subgrant.”
        Furthermore, 45 CFR 2552.25 and 2553.25 state:
        A sponsor shall: …
        (g) Establish record keeping and reporting systems in compliance with
        Corporation requirements that ensure quality of program and fiscal
        operations, facilitate timely and accurate submission of required reports
        and cooperate with Corporation evaluation and data collection efforts.


Recommendation

We recommend that the Corporation instruct the grantee to develop and implement
policies and procedures to ensure that program-related expenses are accurately and
correctly classified and recorded. We also recommend that the Corporation review
match claimed to these grants prior to closeout to ensure that the claimed match is
supported and allowable.

Louisville’s Response

Policies and procedures will be developed to ensure that match costs for telephone
expenses are calculated for the RSVP and FGP programs at the end of each quarter.

Auditors’ Comment

We concur with the corrective action proposed. However, we continue to recommend
that the Corporation review match claimed to these grants prior to closeout to ensure the
costs are supported and allowable.


Internal Control Finding No. 4 – Transactions Were Processed to Inactive Accounts

Condition
During our review of employee salaries, we judgmentally selected four months from the
general ledgers and tested the salaries and wages of staff charged to the FGP and RSVP
grants. We noted numerous transactions that were inadvertently recorded in “inactive
accounts.” The grantee later made journal entries to reclassify the transactions to “active
accounts.” For example, during our review of FGP payroll expenses for the period July
2004 through December 2004, we noted that July through November expenses were
charged to inactive accounts rather than active accounts. The grantee discovered the



                                            27
error when preparing periodic reports and made journal entries to reclassify expenses
from inactive to active accounts.

In addition, we noted that account names and descriptions could not readily be matched
to budget categories for the awards. During our testing of salaries, the grantee only
recovered journal entries and supporting time sheets related to transactions selected for
testing after considerable time and effort was expended.

The above condition occurred because Louisville Metro Government’s practice is to
create separate accounts for grants with a fiscal year that differs from Louisville Metro
Government’s July through June fiscal year, such as FGP and RSVP’s January through
December year. Louisville Metro Government is responsible for assigning account
numbers each year that are termed “active”; the prior year accounts are considered to be
“inactive,” although the accounting system does not block the accounts from accepting
transactions or warn accounting employees that the accounts are inactive.

Without sufficient supporting documentation, expenses claimed may be disallowed or
may not be accepted as part of the grantee share of program operating costs.

Criteria
45 CFR 2541.200(b) states:
        (6) Source documentation. Accounting records must be supported by
        such source documentation as canceled checks, paid bills, payrolls,
        time and attendance records, contract and sub-grant award documents,
        etc.

Furthermore, 45 CFR 2552.25 and 2553.25 state:

       A sponsor shall: …
       (g) Establish record keeping and reporting systems in compliance with
       Corporation requirements that ensure quality of program and fiscal
       operations, facilitate timely and accurate submission of required reports
       and cooperate with Corporation evaluation and data collection efforts.”


Recommendation

We recommend that the Corporation instruct the grantee to develop and implement
policies and procedures to ensure that program-related expenses are accurately and
correctly classified and recorded. Also, staff needs to be trained and provided with
adequate guidance and controls with regard to supervisory review needed to be
strengthened. In addition, account names and descriptions should correspond to budget
categories per the award.




                                           28
Louisville’s Response

The FGP and RSVP programs are funded on a calendar-year basis. Louisville Metro
Government operates on a July 1st to June 30th fiscal year. Therefore, two sets of
accounts are maintained for each program during a fiscal year.

Changes in the financial system and the organization structure were implemented over
the last three fiscal years. The current organization structure allows for the reviewing of
financial activities by program areas.

Accounts that have an inactive status are monitored on a monthly basis, with adjustments
made as needed. Accounts that are no longer in use will be zeroed out and deactivated to
avoid any future transaction postings.

Auditors’ Comment

Although we generally concur with the corrective actions proposed by Louisville, we
continue to recommend that account names and descriptions in the Louisville
bookkeeping system correspond to budget categories per the awards.




                                            29
                   Corporation for National and Community Service
                  Louisville Metro Community Action Partnership

                         Foster Grandparent Program and
                       Retired and Senior Volunteer Program

                          Schedule of Compliance Findings

                            July 1, 2003, to June 30, 2005


We noted the following matters involving Louisville’s noncompliance with certain
provisions of laws, regulations, contracts and grant agreement that are required to be
reported under Government Auditing Standards.

Compliance Finding No. 1 – Inadequate Fulfillment of Program and Administrative
Responsibilities

Condition
The grantee did not adequately fulfill its program and administrative responsibilities in
the following areas:

The grantee did not adequately develop and manage a system of volunteer stations.
   • There were no formal procedures to maintain supporting documentation or staff
       certification that the FGP and RSVP volunteer stations met the program criteria
       of being a public or private organization or an eligible proprietary health care
       agency capable of serving as a volunteer station for the placement of Foster
       Grandparents.
   • There were no formal procedures to periodically review the status of FGP and
       RSVP volunteer stations to ensure that they continually met the program criteria.
       Non-profit status is not reviewed when volunteer stations come into the program
       and volunteer station files are not periodically updated to ensure that volunteer
       stations, such as pre-schools, continue to retain non-profit status and remain
       eligible for the program.
   • We selected and reviewed the FGP Memorandum of Understanding (MOU) for
       13 (50 percent) of the 26 FGP volunteer stations and found 11 instances where
       the MOU was not renegotiated at least every three years. We selected and
       reviewed the RSVP MOU’s for 10 RSVP volunteer stations and noted one
       instance where the MOU was not renegotiated at least every three years.
   • The grantee did not review FGP volunteer placements regularly to ensure that
       clients are eligible to be served. Although the FGP Volunteer Coordinators make
       site visits a minimum of once a month, no written tools are used for monitoring
       the Volunteer Stations.
   • The grantee did not adequately monitor the FGP volunteer stations to ensure that
       they comply with all applicable civil right laws and regulations, and that they
       satisfactorily fulfill their responsibilities as stated in the MOU.



                                           30
Criteria
45 CFR 2552.23states:

       A sponsor shall: …
       (c) Develop and manage a system of volunteer stations by:
       (1) Ensuring that a volunteer station is a public or non-profit private
       organization, whether secular or faith-based, or an eligible proprietary
       health care agency, capable of serving as a volunteer station for the
       placement of Foster Grandparents;
       (2) Ensuring that the placement of Foster Grandparents will be
       governed by a Memorandum of Understanding:
       (i) That is negotiated prior to placement;
       (ii) That specifies the mutual responsibilities of the station and sponsor;
       (iii) That is renegotiated at least every three years; and
       (iv) That states the station assures it will not discriminate against Foster
       Grandparents or in the operation of its program on the basis of race;
       color; national origin, including individuals with limited English
       proficiency; sex; age; political affiliation; religion; or on the basis of
       disability, if the participant or member is a qualified individual with a
       disability and
       (3) Reviewing volunteer placements regularly to ensure that clients are
       eligible to be served…
       (i) Develop, and annually update, a plan for promoting senior service
       within the project’s service area…
       (j) Annually assess the accomplishments and impact of the project on the
       identified needs and problems of the client population in the community.

In addition, 45 CFR 2553.23 states:

       A sponsor shall: …
       (c) Develop and manage a system of volunteer stations to provide a wide
       range of placement opportunities that appeal to persons age 55 and over
       by:
       (1) Ensuring that a volunteer station is a public or non-profit private
       organization or an eligible proprietary health care agency capable of
       serving as a volunteer station for the placement of RSVP volunteers to meet
       locally identified needs;
       (2) Ensuring the placement of RSVP volunteers is governed by a
       Memorandum of Understanding:
       (i) That is negotiated prior to placement;
       (ii) That specifies the mutual responsibilities of the station and sponsor;
       (iii) That is renegotiated at least every three years; and
       (iv) That states the station assures it will not discriminate against RSVP
       volunteers or in the operation of its program on the basis of race; color;
       national origin, including individuals with limited English proficiency; sex;
       age; political affiliation; religion; or on the basis of disability, if the



                                           31
       participant or member is a qualified individual with a disability; and
       (3) Annually assessing the placement of RSVP volunteers to ensure the safety
       of volunteers and their impact on meeting the needs of the community.

Furthermore, 45 CFR 2552.25 and 2553.25 state:

       A sponsor shall: …
       (b) Provide levels of staffing and resources appropriate to accomplish the
       purposes of the project and carry out its project management
       responsibilities…
       (g) Establish record keeping/reporting systems in compliance with
       Corporation requirements that ensure quality of program and fiscal
       operation, facilitate timely and accurate submission of required reports and
       cooperate with Corporation evaluation and data collection efforts.
       (h) Comply with, and ensure that all volunteer stations comply with, all
       applicable civil rights laws and regulations, including providing reasonable
       accommodation to qualified individuals with disabilities.

The grantee overlooked some aspects of its program and administrative responsibilities.
As a result, program goals and objectives may not have been properly achieved.

Recommendation:

We recommend that the Corporation instruct the grantee to:
  • Develop and implement formal procedures to document and periodically review
      the organization status of FGP and RSVP volunteer stations to ensure that the
      volunteer stations meet the program requirements.
  • Develop and implement formal policies and procedures to ensure that FGP and
      RSVP Memorandums of Understanding are properly developed and renegotiated
      with each volunteer station in a timely manner.
  • Develop and implement formal policies and procedures to review FGP volunteer
      placements regularly, and to monitor the performance and compliance of
      volunteer stations on a regular basis.
  • Develop and implement formal policies and procedures to ensure that annual
      plans for FGP and RSVP program promotion are developed properly and in a
      timely manner, and that accomplishments and impacts of the program are
      assessed on an annual basis.


Louisville’s Response

The grantee indicated that it will require all volunteer stations to provide written proof to
meet program criteria of being a public or private organization or an eligible proprietary
health care agency capable of serving as a volunteer station for the placement of Foster
Grandparents. This document will be added to each volunteer station’s file and will be
reviewed by the FGP supervisor annually and updated upon the renewal of each one- and



                                             32
three-year Memorandum of Understanding (MOU).

Also, formal procedures have been developed and added to Louisville’s Policies and
Procedures Manual that will require the FGP Supervisor to review the program MOUs
annually, and identify all MOUs that will expire during that particular grant year.
Effective immediately and upon the renewal of each MOU, the volunteer station will be
required to provide proof of nonprofit status. A copy of this document will be added to
the volunteer station’s file.

A Louisville FGP Site Visit Monitoring form has been developed. Each FGP Volunteer
Coordinator will use this tool to monitor all FGP volunteer stations. The LMCAP
Recruitment Guide to Volunteer Needs for the Senior Corps Programs has been the
designated document for promoting senior service within the project service area. This
document is reviewed and updated annually to meet volunteer needs in both FGP and
RSVP. The LMCAP Public Relations Specialist is also the designated staff member for
supporting and promoting senior service within the project service area and providing
media support for both programs.


Auditors’ Comments

We recognize and concur with the changes implemented, and to be implemented, by
Louisville to address its program and administrative responsibilities.


Compliance Finding No. 2 – Program and Financial Reports Not Submitted in a
Timely Manner

Condition
The grantee did not submit the following FGP reports in a timely manner as required by
the Corporation’s regulations and program handbook.

  Reporting Period      Submission Date        Due Date    No. of Days Late
Financial Status Report
 07/01/03 - 12/31/03       02/26/04            02/01/04            25

Federal Cash Transaction Report
 07/01/03 - 09/30/03      10/31/03             10/22/03            9
 10/01/03 - 12/31/03      03/30/04             01/23/04           67
 04/01/04 - 06/30/04      07/30/04             07/22/04            8
 10/01/04 - 12/31/04      02/18/05             01/24/05           25
 01/01/05 - 03/31/05      08/02/05             04/21/05           103
 04/01/05 - 06/30/05      08/02/05             07/22/05           11




                                          33
In addition, the grantee was unable to locate the following FGP report:

  Reporting Period    Submission Date           Due Date     No. of Days Late
Federal Cash Transaction Report
 01/01/04 - 03/31/04   Unable to locate         04/15/04      Unable to locate

The grantee did not submit the following RSVP reports in a timely manner as required
by the Corporation.

  Reporting Period      Submission Date         Due Date     No. of Days Late
Financial Status Report
 07/01/03 - 12/31/03       02/27/04             02/01/04             26
 01/01/05 - 06/30/05       08/03/05             08/01/05             2

Federal Cash Transaction Report
 07/01/03 - 09/30/03      10/31/03              10/22/03             9
 10/01/03 - 12/31/03      03/30/04              01/23/04            67
 04/01/04 - 06/30/04      07/30/04              07/22/04             8
 10/01/04 - 12/31/04      02/18/05              01/24/05            25
 01/01/05 - 03/31/05      08/02/05              04/21/05            103
 04/01/05 - 06/30/05      08/02/05              07/22/05            11

In addition, the grantee was unable to locate or provide evidence of when the following
RSVP report was submitted:

  Reporting Period    Submission Date           Due Date     No. of Days Late
Federal Cash Transaction Report
 01/01/04 - 03/31/04   Unable to locate         04/15/04      Unable to locate

Due to the hiring of a new business accountant in July 2003, the grantee did not have
sufficient experienced staff to gather the necessary information to complete the required
program and financial reports in a timely manner. As a result, the Corporation may not
be able to receive up-to-date information to monitor program operations and to evaluate
program results.

Criteria
45 CFR 2541.410(b) states:

        (b) Financial Status Report.—(1) Form. Grantees will use Standard
       Form 269 or 269A, Financial Status Report, to report the status of
       funds for all nonconstruction grants and for construction grants when
       required in accordance with paragraph (e)(2)(iii) of this section… (4)
       Due date. When reports are required on a quarterly or semiannual
       basis, they will be due 30 days after the reporting period.



                                           34
       (c) Federal Cash Transactions Report.—(1) Form. (i) For grants paid by
       letter or credit, Treasury check advances or electronic transfer of funds,
       the grantee will submit the Standard Form 272, Federal Cash
       Transactions Report, and when necessary, its continuation sheet,
       Standard Form 272a, unless the terms of the award exempt the grantee
       from this requirement…(4) Frequency and due date. Grantees must
       submit the report no later than 15 working days following the end of
       each quarter.

The Foster Grandparents Program Operations Handbook, April 2000, Section 50 b.,
requires that Project Progress Reports (PPRs) are due no later than 30 days after the end
of the reporting period.

Furthermore, 45 CFR 2552.25 and 2553.25 state:
       A sponsor shall … (g) establish record keeping/reporting systems in
       compliance with Corporation requirements that ensure quality of
       program and fiscal operations, facilitate timely and accurate submission
       of required reports and cooperate with Corporation evaluation and data
       collection efforts.


Recommendation

We recommend that the Corporation instruct the grantee to:
  • Maintain a sufficient staffing level to fulfill its program responsibilities.
  • Develop and implement policies and procedures to ensure that program and
      financial reports are submitted in a timely manner in accordance with the
      Corporation’s requirements.

Louisville’s Response

Louisville took issue with the finding regarding the late filing of RSVP reports,
indicating that, if reports were filed late, it was done with the prior approval of the
Corporation’s State Office Director. Nonetheless, Louisville indicated that procedures
have been established to ensure financial reports are submitted in accordance with
Corporation requirements. Schedules of financial report deadlines have been developed,
which include monthly drawdown requests and quarterly Federal Cash Transaction
reporting and semiannual Financial Status Reports submissions. Additionally, Louisville
Metro Government has established a regular closing date for each month-end closing.


Auditors’ Comments

Notwithstanding Louisville’s response with respect to the RSVP reports identified as
being filed late, we recognize and concur with the procedures implemented by Louisville
to ensure the timely filing of program reports.



                                           35
Compliance Finding No. 3 – Missing or Incomplete Volunteer Eligibility
Documentation and Records

Condition
We reviewed the eligibility documentation and records of 76 FGP volunteers and noted
the following:

   •   11 instances where the latest annual physical examination records could not be
       located in the volunteers’ files to confirm that the volunteers were physically
       capable of serving in the program.
   •   Two instances where the volunteers’ income exceeded the maximum allowed per
       the FGP eligibility guidelines.
   •   Seven instances where the latest annual review of volunteers’ income eligibility
       could not be located in the volunteers’ files.


We reviewed the eligibility documentation and records of 25 RSVP volunteers and noted
the following:

   •   25 instances where the volunteers did not sign a form indicating they agree to
       serve without compensation.


This condition is due to the grantee’s inadequate procedures and controls over FGP and
RSVP volunteer files. As a result, ineligible volunteers may be enrolled causing the
grantee to incur unallowable costs.

Criteria
45 CFR 2552.41 states:

       (a) To be a Foster Grandparent, an individual must:
       (1) Be 60 years of age or older;
       (2) Be determined by a physical examination to be capable, with or
           without reasonable accommodation, of serving children with
           exceptional or special needs without detriment to either
           himself/herself or the children served;...
       (4) In order to receive a stipend, have an income that is within the income
           eligibility guidelines specified in this subpart D.”

45 CFR 2552.42 states:

       (b) For applicants to become stipended Foster Grandparents, annual
       income is projected for the following 12 months, based on income at the
       time of application. For serving stipended Foster Grandparents, annual
       income is counted for the past 12 months.




                                          36
45 CFR 2553.41 states:

       (a) To be an RSVP volunteer, an individual must:
       (1) Be 55 years of age or older;
       (2) Agree to serve without compensation;
       (3) Reside in or nearby the community served by RSVP;...
       (5) Eligibility to serve as a RSVP volunteer shall not be restricted on
           the basis of formal education, experience, race, religion, color,
           national origin, sex, age, handicap or political affiliation.

Furthermore, 45 CFR 2552.45 states:

       (d) Physical examination. Foster Grandparents are required by a
       physical examination prior to assignment and annually thereafter to
       ensure that they will be able to provide supportive service without injury
       to themselves or the children served.

45 CFR 2552.23 states:

       A sponsor shall: … (h) Conduct an annual appraisal of volunteer’s
       performance and annual review of their income eligibility.

45 CFR 2552.25 states:

       A sponsor shall: …
       (g) Establish record keeping/reporting systems in compliance with
       Corporation requirements that ensure quality of program and fiscal
       operation, facilitate timely and accurate submission of required reports
       and cooperate with Corporation evaluation and data collection efforts.

Recommendation

We recommend that the Corporation instruct the grantee to:

       •   Develop and implement formal policies and procedures to ensure that FGP
           and RSVP volunteer records are properly documented and maintained.
       •   Develop and implement procedures to ensure that an annual review of
           volunteer income eligibility is conducted.

Louisville’s Response

Louisville officials said the deficiencies noted were due to inadequate FGP staffing
during grant years 2004 and 2005. On September 12, 2005, Louisville added a full-time
volunteer coordinator to the FGP. Since that time, the Volunteer Coordinator has been
successful in updating all volunteer files to include all annual income reviews, medicals
and over-income volunteers.



                                           37
Effective immediately, Louisville will add a statement to the LMCAP FGP Application
requiring the volunteer to agree that he or she will abide by all requirements set forth in
the program provisions.

For follow-up, Louisville has added the following statement to the RSVP enrollment
form: “I have read and agree to abide by the rules and regulations of RSVP and agree to
serve as a volunteer without compensation/wages”.

Auditors’ Comments

We recognize and concur with the changes implemented, and to be implemented, by
Louisville to address the missing or incomplete volunteer eligibility documentation
records.

Compliance Finding No. 4 –Volunteer Assignment Plans and Annual Performance
Evaluations Not Properly Developed

Condition
We reviewed placement and assignment documentation for 76 FGP volunteers and noted
the following:

   •   Six instances where at least one of the required annual evaluations of the
       volunteers’ performance was not performed.
   •   Pre-service orientation sign-in sheets could not be located for three FGP
       volunteers.
   •   Two FGP volunteers did not receive 20 hours of pre-service and on-site
       orientation from the volunteer stations.

The grantee’s volunteer coordinators did not maintain documentation that volunteers
completed the orientation sessions, and the grantee did not adequately review FGP
volunteer orientations and performance. As a result, volunteers may not be serving
targeted clients in the manner required by program provisions.

Criteria
45 CFR 2552.23 states:

       A sponsor shall: …
       (f) Provide Foster Grandparents with assignments that show direct and
       demonstrable benefits to the children and the community served, the
       Foster Grandparents, and the volunteer station; with required cost
       reimbursements specified in §2552.45; with not less than 40 hours of
       orientation of which 20 hours must be pre-service, and an average of 4
       hours of monthly in-service training….
       (h) Conduct an annual appraisal of volunteers’ performance and annual
       review of their income eligibility.




                                            38
Recommendation

We recommend that the Corporation instruct the grantee to:

   •   Develop and implement policies and procedures to ensure that FGP volunteer
       orientations and performance evaluations are properly conducted and reviewed in
       accordance with the program requirements.
   •   Perform required reviews to fulfill its FGP program responsibilities.

Louisville’s Response

Louisville stated that, one month before the completion of each school year, both FGP
Volunteer Coordinators are required to submit to each volunteer station evaluations on
each assigned Foster Grandparent. Upon receipt by the volunteer coordinator, a copy
will be provided to the FGP Supervisor to insure accuracy, completeness, and to make
sure all Foster Grandparents are evaluated in accordance with all rules and regulations of
the program. Failure to receive six evaluations during the 2004-2005 grant years was
due to inadequate staffing for the program.

Also, effective January 2006, all new volunteers enrolled in the program receive
recognition certificates upon completion of the required 20 hours of pre-service
orientation. Documentation signed by the volunteer station is added to each volunteer
file once each new enrollee completes 20 hours of pre-service orientation at the volunteer
station. This completes the requirements for the 40 hours of pre-service program
orientation.

Auditors’ Comments

We recognize and concur with the changes implemented, and to be implemented, by
Louisville to ensure that volunteer assignment plans and annual performance evaluations
are properly developed.




                                           39
                Appendix A



                Response of the
Louisville Metro Community Action Partnership

      Foster Grandparent Program and
    Retired and Senior Volunteer Program




                     40
P1K)WSJZ574.1157
FAX: 502837.B614
                   April 27,2006
-~espam


                   Ms. Caml Bates
                   Acting Inspector General
                   Office of lnspector General
                   1201 New York Avenue, NW
                   Suite 830
                   Washington, DC 20525

                   Dear Ms. Bates:

                   Enclosed you will find our response to the Draff Report on the results of the incurred
                   cost audit of grants awarded by the Corporation for National and Community Sewicx
                   to Louisville Metm Community Action Partnership Foster Grandparent and Retired
                   and Senior Volunteer Programs. Supporting forms are also enclosed.

                   If you have questions or need additional information, please do not hesitate to
                   contact me at 502-574-11 57.

                   Sincerely,



                   Kimberly L. Bunton
                   Interim Executive Director



                   cc: Kim Livesay Statts, Louisville Metro Finance
                    Michael Norman, Louisville Metro Office of Internal Audit
                                 Audit Responses
                           Foster Grandparent Program
                      Retired and Senior Volunteer Program


Internal Control Findine No. 1 - Unsup~ortedVolunteer Su~portand Ex~enses

Monthly monitoring of FGP and RSVP accounts will ensure that appropriate
expenditures are posted to the appropriate grant and period, in addition to
maintaining supporting documentation. Amended Financial Status Reports will be
submitted that includes account adjustments identified during the monthly
monitoring process.
Financial Status Reports will be reconciled semi-annually to the general ledger
based on Louisville Metro Government's Financial System Closing Schedule.
Adjusting entries processed after closing will be included in Amended Financial
Status Reports. The amended reports will be reconciled to the updated financial
information posted to the general ledger.

Internal Control Finding No. 2 - Insufficient Documentation for Expenses and
Reimbursements

In most instances, support documentation for Corporation share expenses pertained
to interagency charges and match costs. A process has been established to ensure
that support documentation for interagency charges is maintained on site. Such
charges include but are not limited to mailroom charges, software licenses, courier
services, etc.
In addressing interagency charges, the following procedures will be followed:

      a.      Interagency charges are identified and reviewed after each month end
              closing.
       b.     Copies of supporting documentation are obtained from the billing
              agency (i.e.; Finance, General Services Administration, Technology,
              etc.) and verified to the journal detail report for the previous month.
       c.     Supporting documentation is maintained in a folder for interagency
              billings by month and type (i.e.; mailroom charges and courier
              services)
In addressing match costs, the following changes will be made effective immediately:

      a.     In the MOU each volunteer station will provide supporting
             documentation for any and all In-kind contributions to the volunteers
             or the FGP; i.e., recognition, meals and smock laundering. Copies of
             the Meal Rate Sheet will be submitted for each volunteer station
             quarterly and attached to the Quarterly In-kind Voucher.

      b.     For follow-up a statement related to stations providing in-kind to
             RSVP, has been added to the Memorandum of Understanding - "All
             in-kind reports will be collected quarterly, The station is required to
             provide supporting documentation (copy of receipts and/or copy of
             station policy), supporting the amount claimed for any item listed."
             Also, the stations

                                       Page 1
                                    Audit Responses
                               Foster Grandparent Program
                          Retired and Senior Volunteer Program



               quarterly in-kid form now has the statement - "Please provide supporting
               documentation, copy of receipts andlor copy of station policy, supporting
               the amount claimed as in-kind."

               RSVP will be utilizing the station daily sign in sheet for stations that
               provide meals for the volunteers. Each volunteer is required to sign in
               every day that they volunteer An additional column will be added to the
               sign in sheet - "I ate a meal today" Each volunteer is required to initial
               this column when a meal is eaten.

               For follow-up, a copy of the in-kid form is attached.

Internal Control Findinp No. 3 - Teleahone Match Costs Charged Based on
Estimated Rather Than Actual Costs

Policies and procedures will be developed to ensure that match costs for telephone
expenses are calculated for the RSVP and FGP programs at the end of each quarter.

Internal Control Finding. No. 4 - Transactions Were Processed to Inactive Accounts

The FGP and RSVP programs are funded on a calendar year basis. Louisville Metro
Government operates on a July 1st to June 30th fiscal year. Therefore two sets of
accounts are maintained for each program during a fiscal year.

Changes in the financial system and the organization structure were implemented over
the last three fiscal years. The current organization structure allows for the reviewing of
financial activities by program areas.

Accounts that have an inactive status are monitored on a monthly basis, with adjustments
made as needed. Accounts that are no longer in use will be zeroed out and deactivated to
avoid any future transaction postings.




                                          Page 2
                                  Audit Responses
                             Foster Grandparent Program
                        Retired and Senior Volunteer Program




Comaliance Finding No. 1- Inadeauate F u l f i e n t of Program and Administrative
Resaonsibilities

      a.     LMCAP FGP will require all volunteer stations to provide written proof to
             meet program criteria of being a public or private organization or an
             eligible proprietary health care agency capable of serving as a volunteer
             station for the placement of Foster Grandparents. This document will be
             added to each volunteer station file and reviewed by the FGP Supervisor
             annually (January lStor the start of the first month of each grant year) and
             updated upon the renewal of each one and three year Memorandum of
             Understanding (MOU).
      b.      Formal procedures have been developed and added to the LMCAP
             Policies and Procedures Manual that will require the FGP Supervisor to
             review the program MOU's annually, January lStor the start of the first
             month of each grant year, (this procedure was implemented effective
             January 1, 2005) and identify all MOU's that will expire during that
             particular grant year. Effective immediately and upon the renewal of each
             MOU, the volunteer station will be required to provide proof of non-profit
             status. A copy of this document will be added to the volunteer station file.
      c.     A LMCAP FGP Site Visit Monitoring Form has been developed.
             Effective immediately, each FGP Volunteer Coordinator will use this tool
             to monitor all FGP volunteer stations to ensure the following:
             (1)     All clients are eligible to be served.
             (2)     To ensure that all volunteer stations comply with all applicable
                     civil right laws and regulation's, and that they satisfactorily fulfill
                     their responsibilities as stated in the LMCAP FGP MOU.
             (3)     To add the validity of each volunteer station visit in accordance
                     with all rules and regulations of the Foster Grandparent Program.
      d.     The LMCAP Recruitment Guide to Volunteer Needs for the Senior Corps
             Programs has been the designated document for promoting senior service
             within the project service area. This document is reviewed and updated
             annually to meet volunteer needs in both FGP and RSVP. The LMCAP
             Public Relations Specialist is also the designated staff member that will
             support promoting senior service with the project service area and media
             support for both FGP and RSVP.
             of actual certification that the potential volunteer station is a public
             service or private organization or an eligible proprietary health care
             agency. In the past, during the actual station orientation session, the
             RSVP project director asks for proof of certification. Every agency has
             given full cooperation. The project director assured herself of the
             certification by actually reviewing the actual document Agencies that did
             not have the required certification did not sign a MOU with RSVP.


                                         Page 3
                                  Audit Responses
                             Foster Grandparent Program
                        Retired and Senior Volunteer Program




              For follow-up, a statement has been added to the MOU that states "The
              Volunteer Station will: Be a public agency, private non-profit
              organization or eligible propriety health-care organization and will at time
              of signing or renewing the MOU, provide the RSVP Program a copy of
              such certification.
              The copy of certification will be kept in the station files and renewed at
              the date of expiration of the MOU (usually every 3 years). The revised
              MOU is attached.
              The MOU with Brooklawn Youth Services was found not to be negotiated
              at least every three years. The MOU was renegotiated that same week and
              a copy of the new MOU was given to the auditors. For a short period of
              time, RSVP was required by the sponsor, to negotiate MOU's for 1 year.
              After a monitoring of the program by State CNS Director, Betsy Wells,
              the sponsor was asked to allow staff to negotiate MOUs every three years.
              For follow-up, the Brooklawn MU was overlooked when renewing all of
              the MOU's that had previously been renewed for one year. A copy of the
              renewed MOU can not be sent electronically. I will provide a manual
              COPY.

       f.     B. During the preparation of each 3 year program plan, RSVP creates and
              submits with the new grant application, a three year recruitment plan that
              promotes volunteer service within the project area. The RSVP program
              also distributes a service guide to volunteer activities. This guide is
              updated as needed, but no less than quarterly as needs at the site change or
              new sites are added. The CAP PR department also works closely with the
              RSVP project to assure information on volunteerism is distributed at
              community related events. During 2005, information on RSVP was
              distributed at 37 events throughout Metro Louisville.
              For follow-up a copy of the recruitment plan and Guide to Services is
              attached.

Compliance Finding No. 2 - Promam and Financial Reports Not Submitted in a
Timelv Manner

Procedures have been established to ensure financial reports are submitted in accordance
with Corporation requirements. Schedules of financial report deadlines have been
developed, which include monthly drawdown requests and quarterly Federal Cash
Transaction reporting and semi-annual Financial Status Reports submissions.
Additionally, Louisville Metro Government has established a regular closing date for
each month end closing.




                                         Page 4
                                   Audit Responses
                              Foster Grandparent Program
                         Retired and Senior Volunteer Program




The PPR's are currently prepared and submitted by the RSVP project director. CNS does
not ask anywhere on the PPR, for a date of submission. The date printed on the PPR
indicates the actual date the reports were printed, not dates of submission. Please check
with the Corporation. We are certain RSVP did not have any late PPR's, unless prior
approval was received from the State Director, Betsy Wells. The only possibility of
report being late is there may have been a problem with e-grants and the project was
given additional time to enter data.

Compliance Finding No. 3 - Missing or Incomplete Volunteer Eligibilitv
Documentation and Records

       a.     Due to inadequate FGP staffing during the grant years 2004 and 2005 11
              annual physical exams were not completed, two volunteers exceeded the
              maximum allowed income for the program and seven annual reviews of
              volunteers' income eligibility were not completed. September 12, 2005
              the LMCAP FGP added a full-time volunteer coordinator to the FGP.
              Since that time, the Volunteer Coordinator has been successful in updating
              all volunteer files to include all annual income reviews, medicals and over
              income volunteers.
       b.     Effective immediately, a statement will be added to the LMCAP FGP
              Application that will require the volunteer to agree that he or she will
              abide by all requirements set forth in the program provisions.
       c.     For follow-up, the RSVP enrollment form has the statement added "I have
              read and agree to abide by the rules and regulations of RSVP and agree to
              serve as a volunteer without compensation/wages". A copy of the
              enrollment form is attached.

Compliance Finding No. 4 -Volunteer Assignment Plans and Annual Performance
Evaluation Not Properk Developed

       a.     A month before the completion of each school year, both FGP Volunteer
              Coordinators are required to submit to each volunteer station evaluations
              on each assigned Foster Grandparent. Upon receipt back to the volunteer
              coordinator, a copy will be provided to the FGP Supervisor to insure
              accuracy, completeness and to make sure all Foster Grandparents are
              evaluated in accordance with all rules and regulations of the Foster
              Grandparent Program. Failure to receive six evaluations during the 2004-
              2005 grant years was due to inadequate staffing for the program.
       b.     LMCAP assigned a RecruiterRrainer over FGP and RSVP that ended
              June 1, 2003. Part of the RecruiterRrainer's job responsibility was to
              conduct all pre-service orientations for FGP. The RecruiterITrainer's FGP
              orientation agenda reflected three days of training from 9:00 a.m. to 3:00


                                         Page 5
                         Audit Responses
                    Foster Grandparent Program
               Retired and Senior Volunteer Program




     p.m., Monday thru Wednesday, February 18 -20, 2003. The additional
     two hours was time spent taking the volunteers on tours to their assigned
     volunteer station. This practice was designed and approved by the former
     FGP Administrator.         When the FGP Supervisor took over the
     responsibility of conducting FGP pre-service orientation and supervision
     June 1, 2003, all pre-service orientation trainiigs were changed to reflect
     20 hours, Monday - Friday, 9:00 a.m. to 1:00 p.m. daily. After the
     completion of the FGP Orientation May 28 - 30, 2003, the Recruiter
     Trainer failed to attach the sign-in sheet to the orientation agenda. All
     three enrollees did receive 18 hours of pre-service orientation from daily
     observation made by the FGP Supervisor.
c.   Effective January 2006, all new volunteers enrolled in the Foster
     Grandparent Program will receive recognition certificates upon
     completion of the required 20 hours of pre-service orientation.
     Documentation signed by the volunteer station will be added to each
     volunteer file, once each new enrollee completes 20 hours of pre-service
     orientation at the volunteer station. This will complete the requirements
     for the 40 hours of pre-service orientation for the program.




                               Page 6
                Appendix B



                Response of the
Corporation for National and Community Service




                     41
                                    KxFydhAL
                                    COMMUNITY
                                    SERVICE-




CC:                 '4        .
              Tess Scanne 1, Dn-ector,
              Mike Berning, Director, Field Liaison

Date:         May 26,2006

Subject:      Response to OIG Draft Audit Report, Audit of Corporation for National and
              Community Service Grants Awarded to the Louisville Metro Community Action
              Partnership



Thank you for the opportunity to review the draft audit report of the grants awarded to the
Louisville Metro Community Action Partnership. We do not have specific comments at this
time. We will respond to all findings and recommendations in our management decision when
the au&t is issued, we have reviewed the fmdings in detail and worked with the grantee to
resolve the auht.




                          1201 New York Avenue, NW     *
                                                   Washington, DC 20525
                                                *
                                202-606-5000 www.nationalservice.org
                          Senior Corps   * AmeriCorps * Learn and Serve America
